No.
In the
SUPREME COURT of the UNITED STATES
ROGER WALDNER and GLENN AMBORT,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Eighth Circuit
CERTIFICATE OF SERVICE
Roger Dean Waldner
Petitioner, pro se
P.O. Box 485
Redfield, SD 57469
605-472-3135

Glenn Ambort
Petitioner, pro se
P.0. Box 599
Redfield, SD 57469
605-377-8656

RECEIVED
JUL 3 0 2021
I certify that, on July 26, 2021,1 served by U.S. Postal Sejryice^

SUP^EMtTCOURT~UfR<

true and correct copies of this petition for certiorari, Appendices,
certificate of compliance, and certificate service of the Solicitor General

at the address below. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on July 26, 2021

i

Glenn Ambort
Sohcitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001

